                                            A MESSAGE FROM THE
                                             INSPECTOR GENERAL
This Semiannual Report to Congress highlights the activities of the U.S. Nuclear
Regulatory Commission (NRC) Office of the Inspector General (OIG) for the
6-month period ending September 30, 2006.

Our work reflects the legislative mandate of the Inspector General Act to identify
fraud, waste, and abuse and to recommend appropriate corrective actions. The
audits and investigations highlighted in this report demonstrate our commitment
to improving the NRC’s programs and operations and protecting their integrity.
During this reporting period, we continued to assist NRC management in ad-
dressing many challenges associated with refining the efficiency and effectiveness
of programs designed to implement the agency’s regulatory mission.

Before summarizing our recent activities, I would like to acknowledge the professional-
ism, competence, and diligent work of the auditors, investigators, and support staff who
daily champion our mission to ensure integrity and efficiency within the NRC and its
programs. Just recently, my staff was recognized by the President’s Council on Integrity
and Efficiency for outstanding performance in audit and investigation. The Award for
Excellence in Audit was received for exceptional performance in auditing the NRC’s
ability to control and account for radioactive materials. The Award for Excellence in
Investigation was received for exceptional performance in investigating and reporting
NRC’s handling of preemption matters. I commend these talented men and women for
their hard work and dedication to the mission of this office.

During this reporting period, our office completed 15 performance reports on NRC’s
programs and operations making recommendations to NRC for program improvement,
and analyzed 20 contract audit reports. Additionally, OIG initiated 26 investigations and
closed 69 cases, which resulted in $87,658 in recoveries. A total of 7 cases were referred
to the Department of Justice and 39 were forwarded to NRC management for action
during this reporting period.

Finally, I would like to express my appreciation for the collaborative work between my staff
and agency managers to address OIG findings and implement the recommendations made
by my office. I look forward to continuing this work as we strive to accomplish our common
goal of ensuring the effectiveness, efficiency, and integrity of NRC programs and operations.




Hubert T. Bell
Inspector General

                                                                                                          
                                                                           April 1, 2006 – September 30, 2006
ii                          Byron Generating Station

NRC OIG Semiannual Report
                                                                                                CONTENTS
Highlights ...................................................................................................................v
OIG Organization and Activities . ..........................................................................1
	     NRC’s Mission ....................................................................................................1
	     OIG Mission and Strategies ...............................................................................2
		          Inspector General History ...........................................................................2
		          OIG Mission ..................................................................................................3
		          Audit Program ...............................................................................................3
		          Investigative Program ...................................................................................5
	     Management Challenges ....................................................................................6
	     OIG General Counsel Activities . ......................................................................7
		          Regulatory Review ........................................................................................7
	     Other Activities ...................................................................................................9
		          NRG OIG Receives PCIE Awards for Excellence .....................................9
		          New Assistant Inspector General for Investigations................................12
Audits .......................................................................................................................13
	     Audit Summaries . .............................................................................................13
	     Audits In Progress .............................................................................................21
Investigations ...........................................................................................................27
	     Investigative Case Summaries .........................................................................27
Statistical Summary of OIG Accomplishments .................................................33
	     Investigative Statistics .......................................................................................33
	     Audit Listings . ...................................................................................................35
	     Audit Tables . ......................................................................................................37
Abbreviations and Acronyms . ..............................................................................42
Reporting Requirements ........................................................................................44

                                                                                                                                   iii
                                                                                        April 1, 2006 – September 30, 2006
iv                          Limerick Generating Station

NRC OIG Semiannual Report
                                                                  HIGHLIGHTS
The following two sections highlight selected audits and investigations completed
during this reporting period. More detailed summaries appear in subsequent
sections of this report.

AUDITS
•	 The NRC evaluates the performance of operating commercial nuclear power
   reactor licensees in implementing their security programs. A primary feature
   of the security assessment program is the baseline security and safeguards
   inspection program, which evaluates security in such areas as training, equip-
   ment performance, fitness-for-duty, and security planning. The OIG performed
   an audit to assess the effectiveness of the baseline security and safeguards
   inspection program.

•	 OIG conducted an audit to examine NRC’s process for making Commission
   decision documents available for public review and/or comment pursuant to
   relevant legal and regulatory requirements.

•	 The Federal Information Security Management Act (FISMA) outlines the
   information security management requirements for agencies, including the
   requirement for an annual review and annual independent assessment by
   agency Inspectors General. The annual assessments provide agencies with
   the information needed to determine the effectiveness of overall security pro-
   grams and to develop strategies and best practices for improving information
   security.

•	 NRC’s Probabilistic Risk Assessment (PRA) policy statement reflects a com-
   mitment to increasing the use of PRA technology in all regulatory matters to
   the extent supported by the state of the art in PRA methods and data, and in
   a manner that complements the NRC’s deterministic approach and supports
   NRC’s traditional defense-in-depth philosophy. OIG performed an evalua-
   tion to determine if (1) NRC is following prevailing good practices in PRA
   methods and data in its use of PRA, (2) NRC is using prevailing good practices
   in PRA methods and data appropriately in its regulation of licensees, and
   (3) NRC is achieving the objectives of its PRA policy statement.



                                                                                               
                                                                 April 1, 2006 – September 30, 2006
                 INVESTIGATIONS
                 •	 OIG conducted a Special Inquiry into concerns about the NRC approval of
                    the nuclear industry selection of a security firm to provide a mock aggressor
                    force during NRC evaluations of nuclear power plant security. This security
                    firm also provides security guard services to approximately 50 percent of the
                    Nation’s nuclear power plants.

                 •	 OIG completed an investigation into allegations that a lack of NRC regulatory
                    oversight allowed a number of security compromises at the Shearon Harris
                    Nuclear Power Plant to go unresolved.

                 •	 OIG completed an investigation into the NRC staff ’s management of the NRC
                    parking garage contract as a result of a number of complaints of individuals
                    parking in the NRC garage without paying. During a 29-day period, OIG
                    identified 619 instances where NRC staff and contractor personnel parked
                    without paying, resulting in an estimated yearly loss of $32,760 in parking
                    revenue to the agency.

                 •	 OIG conducted a proactive review of MetroChek transit subsidies being im-
                    properly sold on the Internet auction Website, eBay. During the 3-month
                    period reviewed, OIG witnessed 70 individuals selling $20,250 worth of Me-
                    troCheks.

                 •	 OIG conducted an investigation based on concerns that a letter authored by
                    a manufacturer of spent nuclear fuel storage containers included safeguards
                    information, to which the manufacturer did not have authorized access.

                 •	 OIG conducted a review of NRC employees receiving compensation benefits
                    through the Department of Labor (DOL), Office of Workers’ Compensation
                    Program (OWCP) due to workplace injuries.

                 •	 OIG conducted an investigation into information that Aramark Corpora-
                    tion, the contractor for the NRC Cafeteria located at Two White Flint North,
                    was overcharging customers for the State of Maryland sales tax. During the
                    investigation, OIG reviewed the Aramark contract and the operation of the
                    NRC Cafeteria.


vi
NRC OIG Semiannual Report
   OIG ORGANIZATION AND ACTIVITIES
NRC’S MISSION
The U.S. Nuclear Regulatory Commission (NRC) was formed in 1975 to regulate
the various commercial and institutional uses of nuclear materials by the
Energy Reorganization Act of 1974. The agency succeeded the Atomic Energy
Commission, which previously had responsibility for both developing and
regulating nuclear activities.

NRC’s mission is to regulate the Nation’s civilian use of byproduct, source, and
special nuclear materials to ensure adequate protection of public health and safety,
promote the common defense and security, and protect the environment. NRC’s
regulatory mission covers three main areas:

•	 Reactors - Commercial reactors for generating electric power and research
   and test reactors used for research, testing, and training.

•	 Materials - Uses of nuclear materials in medical, industrial, and academic
   settings and facilities that produce nuclear fuel.

•	 Waste - Transportation, storage, and disposal of nuclear materials and waste,
   and decommissioning of nuclear facilities from service.

Under its responsibility to protect public health and safety, NRC has three principal
regulatory functions: (1) establish standards and regulations, (2) issue licenses
for nuclear facilities and users of nuclear materials, and (3) inspect facilities and
users of nuclear materials to ensure compliance with the requirements. These
regulatory functions relate to both nuclear power plants and other uses of nuclear
materials – like nuclear medicine programs at hospitals, academic activities at
educational institutions, research work, and such industrial applications as gauges
and testing equipment.

NRC places a high priority on keeping the public informed of its work. The agency
maintains a current Web site and a public document room in Rockville, Maryland
(NRC headquarters), and holds public hearings, public meetings in local areas
and at NRC offices, and discussions with individuals and organizations.




                                                                                                    
                                                                       April 1, 2006 – September 30, 2006
                   OIG MISSION AND STRATEGIES
                   Inspector General History

                   In the 1970s, Government scandals, oil shortages, and stories of corruption
                   covered by newspapers, television, and radio stations took a toll on the
                   American public’s faith in its Government. The U.S. Congress knew it had to take
                                                          action to restore the public’s trust. It had
                                                          to increase oversight of Federal programs
                                                          and operations. It had to create a mech-
                                                          anism to evaluate the effectiveness of
                                                          Government programs. And, it had to
                                                          provide an independent voice for econ-
                                                          omy, efficiency and effectiveness within
                                                          the Federal Government that would earn
                                                          and maintain the trust of the American
                                                          people.

                                                            In response, President Jimmy Carter in
                                                            1978 signed into law the landmark legisla-
                                                            tion known as the Inspector General Act
                                                            (IG Act). The IG Act created indepen-
                                                            dent Inspectors General (IGs), who would
Inspector General Hubert T. Bell (second from left)         protect the integrity of Government;
presents a plaque to departing Chairman Nils J. Diaz        improve program efficiency and effective-
(center) in appreciation of his support to the mission      ness; prevent and detect fraud, waste and
of the Office of the Inspector General. Also in the         abuse in Federal agencies; and keep agency
photograph are David C. Lee, Deputy Inspector               heads, Congress, and the American people
General (far left), George A. Mulley, Senior Level          fully and currently informed of the find-
Assistant for Investigative Operations (second from         ings of the IGs’ work.
right), and Stephen D. Dingbaum, Assistant
Inspector General for Audits (far right).                    Almost 30 years later, the IG concept is
                                                             a proven success. The IGs continue to
                   deliver significant benefits to our Nation. Thanks to IG audits and inspections,
                   billions of dollars have been returned to the Federal Government or have been
                   better spent based on recommendations identified through those audits and
                   inspections. IG investigations have also contributed to the prosecution of thousands


NRC OIG Semiannual Report
of wrongdoers. In addition, the IG concept of good governance, accountability,
and monetary recoveries encourages foreign governments to seek our advice, with
the goal of replicating the basic IG principles in their own governments.

OIG Mission

NRC’s OIG was established as a statutory entity on April 15, 1989, in accordance
with the 1988 amendment to the IG Act. NRC OIG’s mission is to (1) indepen-
dently and objectively conduct and supervise audits and investigations relating
to NRC programs and operations; (2) prevent and detect fraud, waste, and abuse;
and (3) promote economy, efficiency, and effectiveness in NRC programs and
operations.

OIG is committed to ensuring the integrity of NRC programs and operations.
Developing an effective planning strategy is a critical aspect of accomplishing
this commitment. Such planning ensures that audit and investigative resources
are used effectively. To that end, OIG developed a Strategic Plan that includes
the major challenges and critical risk areas facing NRC.

The plan identifies the priorities of OIG and establishes a shared set of expecta-
tions regarding the goals OIG expects to achieve and the strategies that will be
employed to do so. OIG’s Strategic Plan features three goals which generally align
with NRC’s mission and goals:

1.	 Advance NRC’s efforts to enhance safety and protect the environment.

2.	 Enhance NRC’s efforts to increase security in response to the current threat
    environment.

3.	 Improve the economy, efficiency, and effectiveness of NRC corporate
    management.

Audit Program

The OIG Audit Program covers the management and financial operations,
economy and efficiency with which an organization, program, or function is
managed, and program results achieved. For this program, auditors assess the
degree to which an organization complies with laws, regulations, and the internal
policies in carrying out programs, and they test program effectiveness as well

                                                                                                  
                                                                     April 1, 2006 – September 30, 2006
                   as the accuracy and reliability of financial statements. The overall objective of
                   an audit is to identify ways to enhance agency operations and promote greater
                   economy and efficiency. Audits comprise four phases:

                   •	 Survey phase - An initial phase of the audit usually is conducted to gather
                      information, without detailed verification, on the agency’s organization,
                      programs, activities, and functions. An assessment of vulnerable areas de-
                      termines whether further review is needed.

                   •	 Verification phase - Detailed information is obtained to verify findings and
                      support conclusions and recommendations.

                   •	 Reporting phase - The auditors present the information, findings, con-
                      clusions, and recommendations that are supported by the evidence gathered
                      during the survey and verification phases. Exit conferences are held with
                      management officials to obtain their views on the issues in the report. Com-
                      ments from the exit conferences are presented in the published audit report,
                      as appropriate. Formal written comments are included in their entirety as
                      an appendix in the published audit report.

                   •	 Resolution phase - Positive change results from the resolution process in
                      which management takes action to improve operations based on the recom-
                      mendations in the published audit report. Management actions are monitored
                      until final action is taken on all recommendations. When management and
                      OIG cannot agree on the actions needed to correct a problem identified in
                      an audit report, the issue can be taken to the Chairman for resolution.

                   Each September, OIG issues an Annual Plan that summarizes the audits planned
                   for the coming year. Unanticipated high priority issues may arise that generate
                   audits not listed in the Annual Plan. OIG audit staff continually monitor spe-
                   cific issue areas to strengthen OIG’s internal coordination and overall planning
                   process. Under the OIG Issue Area Monitor (IAM) program, staff designated as
                   IAMs are assigned responsibility for keeping abreast of major agency programs
                   and activities. The broad IAM areas address nuclear reactors, nuclear materials,
                   nuclear waste, international programs, security, information management, and
                   financial management and administrative programs.




NRC OIG Semiannual Report
Investigative Program

OIG’s responsibility for detecting and preventing fraud, waste, and abuse with-
in NRC includes investigating possible violations of criminal statutes relating
to NRC programs and activities, investigating misconduct by NRC employees,
interfacing with the Department of Justice on OIG-related criminal matters, and
coordinating investigations and other OIG initiatives with Federal, State, and
local investigative agencies and other OIGs. Investigations may be initiated as a
result of allegations or referrals from private citizens; licensee employees; NRC
employees; Congress; other Federal, State, and local law enforcement agencies;
OIG audits; the OIG Hotline; and IG initiatives directed at areas bearing a high
potential for fraud, waste, and abuse.

Because NRC’s mission is to protect the health and safety of the public, one
of the Investigation unit’s main focus and use of resources is investigations of
alleged NRC staff misconduct that could adversely impact the agency’s handling
of matters related to health and safety. These investigations typically include
allegations of:

•	 Misconduct by high-ranking NRC officials and other NRC officials, such as
   managers and inspectors, whose positions directly impact public health and
   safety.

•	 Failure by NRC management to ensure that health and safety matters are
   appropriately addressed.

•	 Failure by NRC to appropriately transact nuclear regulation publicly and
   candidly and to openly seek and consider the public’s input during the
   regulatory process.

•	 Conflict of interest by NRC employees with NRC contractors and licensees
   involving such matters as promises of future employment for favorable or
   inappropriate treatment and the acceptance of gratuities.

•	 Fraud in the NRC procurement program involving contractors violating
   Government contracting laws and rules.




                                                                                                 
                                                                    April 1, 2006 – September 30, 2006
                     OIG has also implemented a series of proactive initiatives designed to identify
                     specific high-risk areas that are most vulnerable to fraud, waste, and abuse.
                     A primary focus is electronic-related fraud in the business environment. OIG
                     is committed to improving the security of this constantly changing electronic
                     business environment by investigating unauthorized intrusions and computer-
                     related fraud, and by conducting computer forensic examinations. Other proactive
                     initiatives focus on determining instances of procurement fraud, theft of property,
                     Government credit card abuse, and fraud in Federal programs.


MANAGEMENT CHALLENGES

        NRC’s Most Serious Management Challenges as of September 30, 2005
Challenge 1                                                Challenge 6
Protection of nuclear material used for civilian purposes. Administration of all aspects of financial management.

Challenge 2                                               Challenge 7
Protection of information.                                Communication with external stakeholders
                                                          throughout NRC regulatory activities.

Challenge 3                                               Challenge 8
Development and implementation of a risk-informed         Intra-agency communication (up, down, and across
and performance-based regulatory approach.                organizational lines).

Challenge 4                                               Challenge 9
Ability to modify regulatory processes to meet a          Managing human capital.
changing environment.

Challenge 5                                                      The challenges are not ranked in any order
Implementation of information resources.                         of importance.





NRC OIG Semiannual Report
OIG GENERAL COUNSEL ACTIVITIES
Regulatory Review

Pursuant to the Inspector General Act, 5 U.S.C. App. 3, Section 4(a)(2), OIG reviews
existing and proposed legislation, regulations, and implementing Management
Directives (MD) and policy issues and makes recommendations concerning their
impact on the economy and efficiency of programs and operations administered
by the agency. NRC agency directives that require submission of all draft
legislation, regulations, and policies to OIG facilitate this statutory review.

OIG conducts its regulatory review program by examining agency documents
reflecting proposed regulatory, statutory, and policy actions and measures them
against standards evaluating the potential for fraud, efficiency, and effectiveness.
The review also encompasses issues raised in OIG investigations, audits, and prior
regulatory review commentaries.

In addition, OIG commentaries are used to address issues related to preserving the
independence and integrity of OIG under its statutory precept. These objectives
are met through formal memoranda as well as meetings and discussions.

In order to more effectively track the agency’s response to regulatory review
comments, OIG requests written replies within 90 days, with either a substantive
reply or status of issues raised by OIG.

From April 1, 2006, through September 30, 2006, OIG reviewed more than
300 agency documents, including approximately 140 Commission Papers
(SECYs), Staff Requirements Memoranda, and 160 Federal Register Notices,
regulatory actions, and statutes. The most significant commentaries are
summarized below:

Management Directive (MD) 6.8, Lessons-Learned Program, addresses a vital
and necessary program and as a result, guidance provided must be useable and
comprehensive. OIG remarks focused on the organizational structure and the
individual roles within the program and the adequacy of the directive in describing
the details of the organization. OIG suggested moving segments of the directive



                                                                                                   
                                                                      April 1, 2006 – September 30, 2006
                   so as to present a more logical and understandable guide. Further, the agency
                   was reminded that root cause analysis should not be limited to lessons learned,
                   but considered in all agency program issues.

                   Closely coordinating with the agency action officer, OIG worked to obtain sub-
                   stantial background information to provide the most effective comments for
                   draft MD 11.7, NRC Procedures for Placement and Monitoring of Work with the
                   U.S. Department of Energy. Formal comments on the draft directive identified
                   potentially ambiguous descriptions needing clarification and items requiring
                   definition. Also, the requirement to notify the OIG in cases of suspected
                   organizational conflict of interest was suggested as additional guidance.

                   In addition, for the first time, draft Office of the Executive Director for Operations
                   (OEDO) Procedures were reviewed. The prior OEDO Procedures were changed in
                   2005, consolidating and replacing previous procedure and guidance documents
                   issued by the OEDO. The stated purpose of the new process is to define and
                   improve predictability, quality, timeliness, and transparency of OEDO activities
                   and functions.

                   Two OEDO Procedures were reviewed: Comments on Draft Procedure - 0220,
                   Coordination with the Institute of Nuclear Power Operations (INPO). OIG
                   comments suggested expansion of the title for the Section, which addresses NRC
                   use of INPO documents, to alert the reader as to the broader implications of the
                   direction beyond mere use of the documents; and Draft OEDO Procedure - 0280,
                   Audit Followup Process, which is directly related to the mission and function of
                   the OIG. OIG comments on this document provided specific guidance targeted
                   to relieve systemic issues related to the timeliness of agency oversight of correc-
                   tive action. To assist the agency in avoiding delays, in many instances, of up to
                   10 years for assessing responsive action, the OIG suggested that the agency select
                   recommendations and corrective actions on a sampling basis. Then if corrective
                   action were not evident, interim actions could be evaluated for effectiveness.
                   In addition, the draft procedure proposed excluding financial statements and
                   systems from agency followup. OIG found this could result in improper default
                   of agency responsibility for this function to the OIG or its contractors.

                   Other OIG commentaries focused on security-related matters. For the draft
                   agency Continuity of Operations Plan and Annexes, OIG provided organizational



NRC OIG Semiannual Report
advice and suggestions as to additional sources of intelligence databases. Observa-
tions regarding prerequisite qualifications for personnel and physical plants were
documented. Other technical security and staffing issues were discussed along
with drafting clarifications. The other significant security-related document,
draft MD 12.7, NRC Safeguards Information Security Program, was generally well
constructed and comprehensive. OIG comments were limited to identifying
inconsistencies with other directives and a correction related to the jurisdiction
of the NRC Inspector General. In addition, suggestions were provided as to
expanding guidance via definitions or links.

OTHER ACTIVITIES
NRC OIG Receives PCIE Awards for
Excellence

The President’s Council on Integrity and
Efficiency (PCIE) and the Executive Coun-
cil on Integrity and Efficiency (ECIE) rec-
ognized an OIG audit team and an OIG
special agent in 2006 by awarding them
the prestigious Award for Excellence. The
audit team was recognized for exceptional
performance in recommending actions to
improve NRC activities to control and ac-
count for radioactive materials. The team
consisted of Cheryl Miotla, Audit Manag-
er; Michael Cash, Technical Advisor; and The Nuclear Safety Audits Team receives its 2006
Robert Wild, Senior Management Analyst. PCIE/ECIE Award for Excellence plaques. Pictured
                                             from left to right are: Cheryl A. Miotla, Audit Man-
NRC programs are intended to provide ef- ager; Hubert T. Bell, Inspector General; R.K. Wild,
fective oversight of nuclear materials used Senior Management Analyst; Stephen D. Dingbaum,
for academic, industrial, or medical uses. Assistant Inspector General for Audits; Michael T.
However, these same materials could lead Cash, Technical Advisor; and David C. Lee,
to malicious use in a radiological dispersal Deputy Inspector General.
device (RDD), also known as a dirty bomb,
which is a conventional explosive that incorporates radioactive material and re-
leases it on detonation for the major purpose of creating terror and disruption,


                                                                                                   
not to cause death by radiation.


                                                                      April 1, 2006 – September 30, 2006
                   In July 2002, the Department of Energy (DOE) and NRC established an In-
                   teragency Working Group on RDDs to cooperate on areas where the control
                   of radioactive material could be achieved. One area that the group examined
                   was options for establishing a national source tracking system because NRC’s
                   regulations do not require licensees to report radioactive material inventories to
                   the NRC. The DOE/NRC Working Group recommended that NRC develop a
                   tracking system to better understand and monitor the location and movement
                   of certain radioactive sources.

                   The OIG audit team’s work on NRC’s proposed National Source Tracking System
                   and radioactive material licensing process disclosed that the proposed tracking
                   system may not be adequate because options to track certain materials were not
                   considered. Specifically, the agency has no reasonable estimate of the amount
                   or type of materials that would not be captured in the new system. Further, that
                   NRC’s materials licensing process has previously undisclosed vulnerabilities in
                   that the agency had only assessed licensee vulnerabilities and did not examine
                   vulnerabilities posed by terrorists. For example, rather than stealing radioac-
                   tive materials from a licensee, someone could use counterfeit NRC documents
                   authorizing them to receive, acquire, possess, and transfer radioactive materi-
                   als. Addressing these vulnerabilities is one of the keys to keeping potential dirty
                   bomb (radioactive) materials from the hands of terrorists. The audit team’s work
                   contributed significantly to improving the public health, safety, and security of
                   the American people.

                   Special Agent (SA) Malion Bartley was recognized by the PCIE/ECIE for his
                   exceptional dedication, professionalism, and accomplishment in investigating and
                   reporting agency shortcomings in the NRC’s handling of preemption matters.
                   During 2005, SA Bartley conducted an investigation which addressed the lack of
                   action by the the NRC to prevent a number of individual States from regulating
                   nuclear power in areas preempted by Congress to the Federal Government. The
                   Atomic Energy Act mandates that the regulation of byproduct, source, or special
                   nuclear material is the exclusive jurisdiction of the NRC. Congress authorized
                   the Commission to establish programs for cooperation between the NRC and the
                   States with respect to control of radiation hazards associated with the use of certain
                   radioactive materials used in activities such as medicine and construction; however,
                   Congress drew a line between the types of activities deemed appropriate for regu-
                   lation by individual States and those activities where NRC regulation is required.

10
NRC OIG Semiannual Report
States are not allowed to regulate the more
hazardous activities involving nuclear power
reactors.

OIG learned that since 1992, NRC has al-
lowed the State of Minnesota to enforce an-
nual radiation dose release limits for dry
cask storage at a nuclear power plant in the
State. Further, the States of Connecticut,
Maine, Massachusetts, and New Jersey had
also established more stringent radiological
dose standards at nuclear power plants than
those set by NRC.
                                               Special Agent Malion A. Bartley receives his 2006
SA Bartley examined the appropriateness of PCIE/ECIE Award for Excellence plaque. Pictured
the NRC allowing States to regulate nuclear from left to right are: Hubert T. Bell, Inspector
power in areas preempted by Congress to the General, Joseph A. McMillan, Assistant Inspector
Federal Government by not taking proactive General for Investigations; Malion A. Bartley;
steps to address known encroachments by George A. Mulley, Senior Level Assistant for
various States. He studied the legislative Investigative Operations and David C. Lee,
history of the Atomic Energy Act which Deputy Inspector General.
showed that the intent of the Act was to
remove any room for the exercise of dual or concurrent jurisdiction by States to
regulate nuclear power plant activities. He interviewed a number of stakeholders
involved in the State of Minnesota matter, including officials from the State of
Minnesota, the Deputy General Counsel of a major nuclear power plant utility,
attorneys representing the nuclear industry, and officials with the Nuclear Energy
Institute. He also interviewed senior NRC managers regarding actions by the
State of Minnesota as well as other States who had improperly set radiological
dose standards. SA Bartley learned that those affected by actions by the State
of Minnesota disagreed with the NRC’s policy for handling preemption mat-
ters which essentially resulted in a “fend for yourself approach” by NRC nuclear
power plant licensees.

Congress intended that regulation of a licensee be exercised by either the NRC
Commission or State, but not by both. This Congressional intent was echoed by
all parties interviewed by SA Bartley, including stakeholders and most NRC staff.

                                                                                             11
                                                                    April 1, 2006 – September 30, 2006
                   SA Bartley found that the NRC was aware that the States of Minnesota, Connecti-
                   cut, Maine, Massachusetts, and New Jersey were potentially regulating in areas
                   reserved for the NRC, and he determined that it has been a long standing practice
                   of the NRC to not become involved in preemption matters. As a result of this
                   investigation, the Inspector General recommended that the NRC Commission
                   review past NRC practices regarding preemption issues and direct agency staff
                   to develop a written policy for Commission approval concerning future actions
                   by the NRC in the area of State regulation of nuclear power plants. In response,
                   the Commission endorsed the OIG recommendations.

                                        New Assistant Inspector General for Investigations

                                         On September 17, 2006, Joseph A. McMillan, became the
                                         new Assistant Inspector General for Investigations in the
                                         NRC/OIG. Mr. McMillan most recently served as the Spe-
                                         cial Agent in Charge of the Mid-Atlantic Field Office, at
                                         the Defense Criminal Investigative Service (DCIS), the law
                                         enforcement arm of the Department of Defense, Office of
                                         Inspector General. In this position, he was responsible for
                                         managing all DCIS operations throughout the Washington,
Assistant Inspector General for          D.C. Metropolitan area, Maryland, Virginia, Europe, the
Investigations, Joseph A. McMillan       Middle East, and Southwest Asia. In addition, during his
                                         18-year career with DCIS, Mr. McMillan held a variety of
                    progressively responsible field and headquarters managerial assignments to in-
                    clude the Assistant Special Agent in Charge of the Philadelphia Field Office, the
                    Program Manager for the DCIS Inspection Program, and the Deputy Director
                    for Technical Services.

                   A Pennsylvania native, Mr. McMillan retired from the U.S. Air Force after serv-
                   ing 23 years of active duty and reserve time. Mr. McMillan holds a Bachelor of
                   Science degree in Criminal Justice from Wilmington College, a Master of Arts
                   degree in Criminal Justice, with a concentration in Crime in Commerce, from
                   The George Washington University and is currently enrolled in the Joint Military
                   Intelligence College’s Master of Science of Strategic Intelligence program.




12
NRC OIG Semiannual Report
                                                                                    AUDITS
To help the agency improve its effectiveness and efficiency during this period, OIG
completed 15 performance audits or evaluations that resulted in numerous recom-
mendations to NRC management. OIG also analyzed 20 contract audit reports.

AUDIT SUMMARIES
Audit of NRC’s Oversight of Agreement States’ Licensing Actions

OIG Strategic Goal: Safety

In accordance with the Atomic Energy Act of 1954, as amended (AEA), the NRC
relinquishes its authority to regulate certain byproduct material to 34 States. These
Agreement States are responsible for administering approximately 17,300 materials
licenses. The AEA also mandates that NRC periodically review agreements and
actions taken by Agreement States to ensure compliance with provisions of the
Act. NRC established the Integrated Materials Performance Evaluation Program
as the mechanism for overseeing Agreement State programs. OIG performed this
audit to evaluate NRC’s oversight of Agreement State licensing actions.

Audit Results. NRC uses a judgmental sampling method to rate the overall
technical quality of an Agreement State’s licensing actions. However, while NRC
should only apply the conclusions drawn from the sample to those license actions
selected, NRC projects the results to the overall licensing program. To project
sample results to the entire program and to measure the confidence in those
results requires statistical sampling. Because NRC uses judgmental sampling,
NRC cannot measure the level of confidence in conclusions about the adequacy
of an Agreement State licensing actions to protect public health and safety. Fur-
thermore, without confidence in ratings about a State’s licensing program, NRC
cannot attest to the confidence level in overall program ratings on the adequacy
of an Agreement State program. (Addresses Management Challenge #1)

Audit of NMSS’ Procedures for Processing Inspection Guidance

OIG Strategic Goal: Safety

Through the Office of Nuclear Materials Safety and Safeguards (NMSS), NRC
regulates the uses of nuclear materials in medical, industrial, and academic settings;
facilities that produce nuclear fuel; and the transportation, storage, and disposal

                                                                                                 13
                                                                        April 1, 2006 – September 30, 2006
                   of nuclear materials and waste. The agency ensures safety in these areas by using
                   a combination of regulatory requirements including inspection, assessment of
                   performance, and enforcement. NRC obtains objective information through its
                   inspection program that permits the agency to assess whether its licensees are
                   operating safely in accordance with NRC regulations. NRC’s inspection manual
                   is a compilation of documents that defines the policies, procedures, and programs
                   for conducting these inspections.

                   OIG conducted this audit to determine whether NMSS has assurance that its
                   inspection guidance is effectively and efficiently published and implemented.

                   Audit Results. While NMSS has policy and procedures for processing inspection
                   guidance, it lacks the management controls to ensure that new or revised inspec-
                   tion guidance under its purview is published and implemented. Because NMSS’
                   procedures are incomplete and dependent on informal understandings, NMSS
                   is dependent on people and not a process. As a result, managers and inspectors
                   risk using outdated or incorrect inspection guidance and not carrying out inspec-
                   tions as expected. In one instance, a revised inspection manual chapter had been
                   misplaced for over a year and a half, with resulting confusion over who actually
                   had responsibility for the document or what was being done to it. Furthermore,
                   all inspectors were not using the same version of this inspection manual chapter.
                   (Addresses Management Challenge #1)

                   Evaluation of Personal Privacy Information Found on
                   NRC Network Drives

                   OIG Strategic Goal: Security

                   The Federal Privacy Act of 1974, as amended, establishes safeguards for the pro-
                   tection of records the Federal Government collects, maintains, uses, and dissemi-
                   nates on individuals. It balances the government’s need to maintain information
                   about individuals with the rights of individuals to be protected against invasions
                   of their privacy. The Privacy Act applies when information is retrieved by per-
                   sonal identifier from agency records (e.g., paper records, electronic records, and
                   microfiche) that contain information about individuals. A personal identifier can
                   be a number assigned to an individual or the individual’s Social Security number.
                   This report was issued as the result of information developed during the Fiscal


14
NRC OIG Semiannual Report
Year (FY) 2006 Federal Information Security Management Act (FISMA) evalu-
ation of the NRC’s information security program.

Evaluation Results. OIG’s contractor found Privacy Act information, including
Social Security numbers and dates of birth, on NRC network drives that can be
accessed by all agency network users, including those who do not have a need for
this information. Privacy Act information was found on the NRC network drives
because (1) NRC employees are not following existing guidance for protecting
personal privacy information, and (2) NRC lacks procedures for monitoring NRC
network drives for sensitive data. As a result, NRC employees could be at risk
for identity fraud, and employees who placed the Privacy Act information on the
NRC network drives may be subject to criminal penalties and fines. (Addresses
Management Challenge #2)

Computer Security Audits of the Regions and the Technical
Training Center

OIG Strategic Goal: Security

NRC depends heavily on information system security measures to avoid data
tampering, fraud, inappropriate access to and disclosure of sensitive information,
and disruptions in critical operations. NRC has four regional offices that constitute
the agency’s front line in carrying out its mission and implementing established
agency policies and programs nationwide. NRC also has in place the Technical
Training Center (TTC) in Chattanooga, Tennessee to provide training for NRC
headquarters and regional staff in various technical disciplines associated with
the regulation of nuclear materials and facilities.

OIG performed these audits to evaluate (1) the adequacy of NRC’s informa-
tion security programs and practices in the NRC regions and the TTC, (2) the
effectiveness of the regions’ and TTC’s security control techniques, and (3) the
progress towards resolving information security program weaknesses identified
during the FY 2003 computer security audits of the regions and TTC.

Audit Results. While many of the regions’ and TTC’s automated and manual
security controls are generally effective, some security controls need improve-
ment. Specifically, the regions’ and TTC’s information security programs and


                                                                                                15
                                                                       April 1, 2006 – September 30, 2006
                   practices are not always consistent with the NRC’s Automated Information Sys-
                   tems security program as defined in Management Directive 12.5, NRC Automated
                   Information Security Program, FISMA, Office of Management and Budget (OMB),
                   and National Institute of Standards and Technology (NIST) guidance. (Addresses
                   Management Challenge #2)

                   Audit of NRC’s Implementation of Homeland Security Presidential
                   Directive – 12

                   OIG Strategic Goal: Security

                   Homeland Security Presidential Directive-12 (HSPD-12), issued on August 27,
                   2004, ordered the establishment of a mandatory Government-wide standard for
                   secure and reliable forms of identification for employees and contractors. In Feb-
                   ruary 2005, NIST issued the requirements for a common identification standard
                   for Federal employees and contractors and revised them in March 2006.

                   The requirements consist of two parts. The first, referred to as PIV-I, sets out uni-
                   form requirements for identity proofing (i.e., verifying the identity of individuals
                   applying for official agency badges) as well as issuing badges, maintaining related
                   information, and protecting the privacy of applicants. The second part, known as
                   PIV-II, provides detailed specifications that will support technical interoperability
                   (the ability of two or more systems or components to exchange information and
                   to use the information exchanged) among the different Government department
                   and agency personal identity verification systems.

                   OIG performed this audit to determine whether the NRC is positioned to meet
                   HSPD-12 requirements.

                   Audit Results. NRC implemented a PIV-I process within the timeframe required
                   by OMB. However, staff do not always follow certain PIV-I requirements contained
                   in NIST guidance or in NRC’s accredited PIV-I implementation plan.

                   These problems occurred because (1) there is no quality assurance measure to
                   assure that require steps are met prior to badge issuance, (2) some personnel with
                   roles in the process do not understand their responsibilities, and (3) the badge
                   photograph process is not carried out in accordance with the accredited plan. As


16
NRC OIG Semiannual Report
a result, NRC (1) lacks assurance that the PIV-I process is consistently followed
and (2) does not achieve the HSPD-12 separation-of-duty requirement.

Also, NRC’s HSPD-12 working group lacks a charter, lacks certain expertise that
will be useful to guide the implementation of PIV-II, and has limited executive
level representation. The development of an appropriate and cost-effective PIV-II
solution will be facilitated by the efforts of a more formalized working group.
(Addresses Management Challenge #5)

Audit of NRC’s Baseline Security and Safeguards Inspection Program

OIG Strategic Goal: Security

The NRC’s Operating Reactor Security Assessment Program addresses the Reac-
tor Oversight Process’s physical protection cornerstone. The program evaluates
the performance of operating commercial nuclear power reactor
licensees in implementing their security programs and communi-
cating the results to licensee managers, NRC managers, and other   A primary feature
stakeholders. A primary feature of the security assessment pro-
gram is the baseline security and safeguards inspection program,
                                                                   of the security
which evaluates security in such areas as training, equipment assessment program
performance, fitness-for-duty, and security planning.
                                                                    is the baseline
OIG performed this audit to assess the effectiveness of the base-
line security and safeguards inspection program by examining        security and
the program’s resources, training and qualification requirements,
and the consistency of program implementation.                      safeguards inspec-
Audit Results. A revised baseline security and safeguards in- tion program...
spection program is proceeding with its first year of full regional
implementation. OIG found that resource levels established for
this program appear to be sufficient, as regions have been able to complete the
program requirements even while the program is more rigorous. However, im-
provements are needed in (1) the security training program, (2) the subjective
approaches used by NRC inspectors in determining the depth and scope of review
needed to assess plant security program elements, and (3) the completeness of
the historical information on security-related findings provided to the Security
Findings Review Panel. (Addresses Management Challenge #1)

                                                                                             17
                                                                    April 1, 2006 – September 30, 2006
                   Audit of NRC’s Process for Releasing Commission Decision
                   Documents

                   OIG Strategic Goal: Corporate Management

                   OIG became aware of a November 2004 staff issue paper to the Commission,
                   commonly known as a SECY Paper, which proposed a new NRC policy for as-
                   sessing the effectiveness of security measures of material licensees. In the subject
                   SECY Paper, staff expressly requested a “Commission policy decision” before
                   proceeding further on a framework for future agency actions. In a subsequent
                   Staff Requirements Memorandum (SRM), the Commission approved the staff ’s
                   proposal and the mechanism for implementing the new policy.

                   The Freedom of Information Act (FOIA) requires agencies, including the NRC,
                   to make information available to the general public by request or through auto-
                   matic disclosure.

                   Although it seemed appropriate to inform the public of a proposed new policy,
                   OIG determined that NRC did not inform the public or solicit its comments.
                   Therefore, OIG initiated an audit to examine NRC’s process for making certain
                   Commission decision documents, specifically SECY Papers and SRMs, available
                   for public review and/or comment. The overall purpose was to assess the agency’s
                   process for evaluating SECY Papers and SRMs for public release pursuant to
                   relevant legal and regulatory requirements.

                   Audit Results. NRC has a process for handling FOIA requests. However, the
                   agency lacks the internal controls needed to ensure compliance with the FOIA
                   automatic disclosure requirements. Specifically, NRC lacks a systematic process
                   to identify if SECY Papers and SRMs should be released to the public pursuant
                   to FOIA automatic disclosure requirements. This is because (1) NRC does not
                   consider these documents to convey policy or other FOIA automatic disclosure-
                   type material, and (2) no agency organization is specifically assigned process
                   ownership of FOIA automatic disclosure responsibilities. Absent adequate con-
                   trols for a systematic review process, the agency may inappropriately withhold
                   decisionmaking documents that meet the threshold for public disclosure. The
                   lack of a rigorous review process jeopardizes NRC’s compliance with FOIA auto-
                   matic disclosure requirements and hampers the agency’s ability to fully achieve


18
NRC OIG Semiannual Report
its strategic goal of regulatory openness, thereby undermining public confidence
in the agency. (Addresses Management Challenge #7)

Evaluation of NRC’s Information Security Practices

OIG Strategic Goal: Security

The Federal Information Security Management Act (FISMA) outlines the informa-
tion security management requirements for agencies, including the requirement
for an annual review and annual independent assessment by agency Inspectors
General. The annual assessments provide agencies with the information needed
to determine the effectiveness of overall security programs and to develop strate-
gies and best practices for improving information security.

The objectives of this evaluation were to evaluate (1) the adequacy of NRC’s infor-
mation security programs and practices for NRC major applications and general
support systems of record for FY 2006, (2) the effectiveness of agency information
security control techniques, and (3) the implementation of the NRC’s corrective
action plan created as a result of the 2005 FISMA program review.

Audit Results. While the agency has made some improvements since the FY 2005
FISMA independent evaluation, the agency has two significant deficiencies:

•	 Most NRC systems were not certified or accredited, and

•	 Annual contingency plan testing is not being performed.

In addition, the evaluation also identified eight information system security pro-
gram weaknesses. The details of these deficiencies and weakness are not presented
here because they contain security related information. (Addresses Management
Challenge #2)

Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA) in
Regulating the Commercial Nuclear Power Industry

OIG Strategic Goal: Safety

NRC’s PRA policy statement reflects a commitment to increasing the use of
PRA technology in all regulatory matters to the extent supported by the state

                                                                                               19
                                                                      April 1, 2006 – September 30, 2006
                   of the art in PRA methods and data, and in a manner that complements the
                   NRC’s deterministic approach and supports NRC’s traditional defense-in-depth
                   philosophy. Unlike deterministic analysis that is based on applying experience,
                   testing programs and expert judgment, PRA develops a quantitative estimate of
                   risk by evaluating the frequency of initiating events, the conditional probability
                   of the unavailability and the unreliability of systems, structures and components
                   (SSCs) available to mitigate an initiating event, and the reliability of human in-
                   teraction with SSCs. In addition, PRA extends the deterministic approach by
                   examining multiple failures and unavailability of SSCs. Typically, the results of
                   a PRA are presented as core damage frequency and large early release frequency,
                   the contributors to these estimated results, and the corresponding uncertainties
                   in the estimated results.

                   The objectives of this evaluation were to:

                   •	 Determine if NRC is following prevailing good practices in PRA methods
                      and data in its use of PRA,

                   •	 Determine if NRC is using prevailing good practices in PRA methods and
                      data appropriately in its regulation of licensees, and

                   •	 Determine if NRC is achieving the objectives of its PRA policy statement.

                   This evaluation addressed only the NRC’s regulation of operating commercial
                   power plants.

                   Audit Results. Although NRC is employing prevailing good practices in the areas
                   evaluated in this report, the agency lacks formal, documented processes and as-
                   sociated configuration control for its PRA models and software. Specifically:

                   •	 NRC’s computer models of plant SSCs were not consistently maintained with
                      changes to the as-operated plant, and

                   •	 The quality assurance program for the computer software programs used
                      during the PRA process was not documented and the software was not thor-
                      oughly tested.

                   As a result, NRC staff may not come to the correct conclusions regarding the safety
                   of commercial nuclear power plants. (Addresses Management Challenge #3)

20
NRC OIG Semiannual Report
AUDITS IN PROGRESS
Audit of NRC’s Regulation of Nuclear Fuel Cycle Facilities

OIG Strategic Goal: Safety

NRC licenses, certifies, and inspects commercial facilities that convert uranium
ore into fuel used in nuclear power plants. These facilities include gaseous dif-
fusion plants, highly enriched uranium fuel fabrication facilities, low enriched
uranium fuel fabrication facilities, and one uranium hexafluoride production
facility. Each facility possesses large quantities of materials that could pose a
significant threat to the public and the environment.

The agency’s regulation of nuclear fuel cycle facilities seeks to ensure that licensees
adequately protect public health and safety, worker safety, and the environment,
and promote the common defense and security when source or special nuclear
material is used during the nuclear fuel production cycle.

OIG has not previously evaluated this program, which has been undergoing
change in recent years to make it more risk-informed and performance-based.
The objective of this audit is to determine whether NRC’s regulation of nuclear fuel
cycle facilities is effective and efficient. (Addresses Management Challenge #3)

Audit of the Nuclear Power Plant
License Renewal Program

OIG Strategic Goal: Safety

The Atomic Energy Act provides for a license period of 40
years for commercial nuclear power plants, but includes
provisions for extending the license beyond this initial
period. This original 40-year term for reactor licenses was
based on economic and antitrust considerations—not on
limitations of nuclear technology. Due to this selected
time period, however, some structures and components
may have been engineered on the basis of an expected Vermont Yankee Nuclear Power Station
40-year service life. The maximum renewal period of applied for License Renewal in January
licenses is for an additional 20 years. The first operat- 2006.


                                                                                                  21
                                                                         April 1, 2006 – September 30, 2006
                   ing license will expire in 2006; approximately 10 percent will expire by the end
                   of 2010 and more than 40 percent will expire by 2015. At this time, there are
                   approximately 14 completed license renewal applications, 8 applications under
                   review, and 23 letters of intent to seek license renewal.

                   The agency has accumulated experience with the license renewal process, and
                   the expectation is that a large number of applications will be reviewed over the
                   next decade. The reactors currently in operation are the first generation of power
                   reactors. Operation of these plants beyond 40 years and upwards to 60 years
                   introduces the potential that new aging phenomena could be observed in the
                   next two decades.

                   The objective of this audit is to determine the effectiveness of license renewal
                   reviews using standards existing in various agency documents and regulations.
                   OIG will also review scheduling and resource management. (Addresses Manage-
                   ment Challenges #1 and 3)

                   Summary Report and Perspectives on Byproduct Material Security
                   and Control

                   OIG Strategic Goal: Safety

                   In February 2005, OIG began an audit to determine if NRC’s oversight of byprod-
                   uct material provides reasonable assurance that licensees are using the material
                   safely and can account for and control the material. During 2006, OIG issued
                   three reports related to material tracking and licensing. Also during this time-
                   frame, the Government Accountability Office (GAO) conducted an investigation
                   to ascertain whether radioactive sources could be smuggled across U.S. borders.
                   The GAO work culminated in a March 2006 congressional hearing to discuss the
                   results of the investigation.

                   Through this report, OIG will combine the findings of the previous OIG audit
                   reports and GAO’s investigation in order to provide a more complete perspec-
                   tive of NRC’s approach to byproduct material security and control. The specific
                   objective for this report is to discuss whether NRC has adequately transformed
                   its mission to provide for the security of byproduct material in the post-Septem-
                   ber 11 era in accordance with the expectations of lawmakers and the American
                   people. (Addresses Management Challenge #1)

22
NRC OIG Semiannual Report
Audit of Non-Capitalized Property

OIG Strategic Goal: Corporate Management

During FY 2001, OIG evaluated policies governing the accountability and control
of NRC’s non-capitalized Information Technology (IT) property. The review found
that property management policies for this equipment adhered to applicable laws
and regulations; however, management controls to implement these policies were
inadequate or lacking. In addition, the NRC’s Property and Supply System, an
online interactive computer system that functions as the official database for the
agency’s property transactions, contained inaccurate information. During FYs
2004 and 2005, NRC developed the Space and Property Management System
(SPMS), a new property and supply system designed to replace the old system.
SPMS became operational on December 13, 2004, and final acceptance of the
system by the Office of Administration took place in June 2005.

NRC policy requires the effective and efficient management of property including
sufficient controls to deter or prevent loss through fraud, waste, or misuse. This
policy not only applies to property in the agency’s possession, but also to property
physically maintained by NRC’s contractors. As of July 30, 2005, SPMS accounted
for approximately 17,680 pieces of non-capitalized property with an acquisition
cost of approximately $30.4 million. This included 1,343 laptops and 643 personal
digital assistants with an acquisition value of approximately $3.6 million.

The objective of this audit is to determine whether NRC has established and
implemented an effective system of management controls for maintaining ac-
countability and control of non-capitalized property. (Addresses Management
Challenge #6)

Audit of NRC’s FY 2006 Financial Statements

OIG Strategic Goal: Corporate Management

Under the Chief Financial Officers Act and the Government Management and
Reform Act, OIG is required to annually audit NRC’s financial statements. OIG
is auditing NRC’s financial statements in accordance with applicable auditing
standards. The audit will express an opinion on the agency’s financial statements,
evaluate internal controls, review compliance with applicable laws and regula-

                                                                                                23
                                                                       April 1, 2006 – September 30, 2006
                   tions, review the performance measures included in the financial statements for
                   compliance with OMB guidance, and review the controls in the NRC’s computer
                   systems that are significant to the financial statements. In addition, OIG will be
                   measuring the agency’s improvements by assessing corrective action taken on
                   prior years’ audit findings. (Addresses Management Challenge #6)

                   Audit of NRC’s Technical Training Center

                   OIG Strategic Goal: Corporate Management

                   The NRC’s Office of Human Resources manages training programs conducted
                   at the Technical Training Center (TTC) in Chattanooga, Tennessee. TTC, with
                   a budget of $3.6 million and 27 FTE, conducts training programs related to the
                   regulation of nuclear materials and facilities including: nuclear power plant tech-
                   nology, radiation protection, risk assessment, and regulatory skills. Agreement
                   State students, in addition to agency employees, attend courses at TTC.

                   The objective of this audit is to identify opportunities to improve the economy,
                   efficiency, and/or effectiveness of TTC’s operations. (Addresses Management
                   Challenge #9)

                   Evaluation of NRC’s Most Serious Management and Performance
                   Challenges

                   OIG Strategic Goal: Corporate Management

                   In January 2000, Congress enacted the Reports Consolidation Act of 2000 (the
                   Act) which requires Federal agencies to provide an annual report that would
                   consolidate financial and performance management information in a more mean-
                   ingful and useful format for Congress, the President, and the public. Included in
                   the Act is a requirement that, on an annual basis, Inspectors General summarize
                   the most serious management and performance challenges facing their agencies.
                   Additionally, the Act provides that IGs assess their respective agency’s effort to
                   address the challenges, compare and contrast the new challenges listing with
                   previous listings, and identify programs that have had questionable success in
                   achieving results.




24
NRC OIG Semiannual Report
This evaluation is assessing the agency’s efforts to address the management and
performance challenges, and identifying any related agency programs that have
had questionable success in achieving results. (Addresses All Management Chal-
lenges)

Audit of NRC’s Badge Access Program

OIG Strategic Goal: Security
                                                                       ...the badge is a

The photo-identification/key card badge is an integral part of NRC’s
                                                                       programmable key
physical security program. In addition to containing personal          card for controlling
identification information, the badge is a programmable key card
for controlling building/area access at headquarters, each of the      building/area access
regional offices, and the TTC. All badge manufacturing is done
at headquarters, and specific access rights are assigned to each       at headquarters,
badge via headquarters, regional, and TTC access control systems.
Based on the level of rights assigned, employees and contractors       each of the regional
place their key cards against card readers to gain entry to various    offices, and the TTC
parts of the buildings and, in some cases, during specific times of
day. NRC currently uses barium ferrite cards and readers.

The objectives of this audit is to determine if the card access system meets its
required operational capabilities and provides for the security, availability, and
integrity of the system data. (Addresses Management Challenge #5)

Audit of the Emergency Preparedness Program

OIG Strategic Goal: Security

Emergency Preparedness (EP) measures are designed to address a wide range of
event scenarios. Following the events of September 11, the NRC evaluated the
EP planning basis, issued orders requiring compensatory measures for nuclear
security and safety, and observed license performance during security-based EP
drills and exercises and security force-on-force exercise evaluations. Based on
the information obtained through the drills and exercises, the staff determined
that the EP basis remains valid but recognized that security events differ from
accident-initiated events.


                                                                                                25
                                                                       April 1, 2006 – September 30, 2006
                   The objective of this audit is to assess the effectiveness of the EP program since it
                   has been incorporated into the Office of Nuclear Security and Incident Response.
                   (Addresses Management Challenge #1)




26
NRC OIG Semiannual Report
                                                          INVESTIGATIONS
During this reporting period, OIG received 134 allegations, initiated 26 investigations
and closed 69 cases. In addition, the OIG made 39 referrals to NRC management
and 7 to the Department of Justice.

INVESTIGATIVE CASE SUMMARIES
NRC’s Oversight of the Force-on-Force Program

OIG Strategic Goal: Security

OIG conducted a Special Inquiry in response to concerns raised by the public and
Members of Congress about the NRC’s approval of the selection by the nuclear
industry of a major security corporation to provide the mock aggressor force during
NRC evaluations of the security of nuclear power plants. Specifically, as a result
of the September 2001 terrorist attacks, the NRC conducted an evaluation of the
security and safeguards programs of nuclear power plants. As part of this effort,
NRC identified the need to improve the offensive abilities and effectiveness of the
mock adversary force that is used to test power plant security. Subsequently, the
staff provided the NRC Commission with five alternatives that outlined various
processes for the development and implementation of a credible, well-trained, and
consistent mock adversary force for Force-on-Force (FOF) exercises. The Com-
mission voted to approve the staff ’s recommendation which called for the NRC
staff to establish adversary force standards and guidelines and for the industry to
select and train a pool of personnel for a Composite Adversary Force (CAF) that
would meet the performance standards established by the NRC. Acting on this
decision, the Nuclear Energy Institute, an organization that represents the nuclear
industry, selected The Wackenhut Corporation (Wackenhut) as the CAF through
a competitive contract process. The selection of Wackenhut, a firm that provided
security guard services for approximately 50 percent of the Nation’s nuclear power
plants, to also act as an adversary force to test nuclear plant security resulted in
concerns of a possible conflict of interest.

This OIG Special Inquiry found that the Commission directed the NRC staff to
ensure that there would be appropriate management and administrative controls
within Wackenhut to provide adequate independence between CAF and nuclear
power plant security forces. OIG found that the NRC staff had measures in place
to maintain control of the FOF inspection schedule, plan, and process. Also,


                                                                                                  27
                                                                         April 1, 2006 – September 30, 2006
                   during FOF exercises, the NRC staff (1) evaluated the licensee’s ability to defend
                   against the adversary threat, (2) monitored and evaluated the performance of
                   the CAF, and (3) made the final determination regarding the FOF test results.
                   (Addresses Management Challenge #1)

                   NRC Staff Handling of Security Concerns at a Nuclear Power Plant

                   OIG Strategic Goal: Security

                   OIG conducted an investigation involving an allegation that there were pervasive
                   compromises of security at the Shearon Harris Nuclear Power Plant (Shearon Har-
                   ris), an NRC licensee. Public interest groups reported to OIG that managers of
                                            Shearon Harris and the company providing the security
                                            guard force for the plant were aware of uncorrected se-
                                            curity deficiencies and retaliated against security guards
                                            for reporting security concerns. Also alleged was that
                                            NRC was negligent in performing its regulatory oversight
                                            responsibilities because over the past 6 years, security
                                            concerns at Shearon Harris that had been reported to
                                            the NRC had not been acted upon.

                                           OIG learned that in December 2005, 19 new security
                                           concerns were reported to the NRC. The NRC staff
                                           conducted an inspection and substantiated seven of the
                                           concerns, but the staff found that the seven concerns
Shearon Harris Nuclear Power Plant         did not represent a degradation of plant security. Based
                                           on their interviews and inspections, the NRC staff was
                 unable to validate nine concerns. Three of the concerns were investigated by the
                 NRC Office of Investigations.

                   In addition, OIG determined that between 1999 and 2005, three concerns regard-
                   ing security door deficiencies were reported to NRC involving Shearon Harris.
                   OIG found that the NRC staff appropriately addressed these 3 concerns as well
                   as the 19 concerns reported in December 2005. (Addresses Management Chal-
                   lenge #1)




28
NRC OIG Semiannual Report
NRC Oversight of the Parking Garage Operation

OIG Strategic Goal: Corporate Management

OIG conducted an investigation of the NRC staff ’s management of the NRC
parking garage contract based on a number of OIG Hotline complaints concern-
ing individuals parking in the NRC White Flint parking garage complex without
paying. An NRC contractor is responsible for managing the daily operations of
the NRC White Flint garage. Since 2000, OIG has conducted three investigations
involving the management of the NRC parking garage. These previous investi-
gations found that a lack of NRC staff oversight of the parking garage contract
allowed the contractor to withhold revenue from the NRC from parking receipts,
not follow established parking procedures, and embezzle $11,400 of daily park-
ing fees. In November 2005, to again assess if the NRC staff was effectively managing
the NRC garage contract, OIG reviewed the procedures used in administering
the day-to-day operations by NRC staff and its contractor.

OIG learned that the NRC contract required the parking garage contractor to
collect a parking fee of $60 for monthly permits and to collect a fee of $6 for daily
parking permits. OIG canvassed the NRC White Flint garage for 29 days in an
effort to check every parked vehicle for either a valid monthly or daily permit.
OIG found 619 instances of vehicles parked in the garage without a valid permit.
NRC staff and contractor personnel only reported 5 citations during the same
29 days that OIG canvassed the garage. While the contract required the NRC
staff and contractor personnel to inspect the garage for vehicles parked without a
valid permit, this was not taking place. The lack of NRC oversight and contrac-
tor failure to fulfill contract responsibilities allowed an average of 21 people per
day to park without paying the daily parking fee. This lack of oversight cost the
NRC an estimated $32,760 in parking revenue over a 1-year period. OIG noted
that the ineffective monitoring of the parking garage contract also resulted in a
failure to optimize the use of limited parking spaces. (Addresses Management
Challenge #6)




                                                                                                29
                                                                       April 1, 2006 – September 30, 2006
                   Proactive Review of the Sale of MetroCheks on eBay

                   OIG Strategic Goal: Corporate Management

                   OIG conducted a proactive effort after noting that individuals were offering Me-
                   troCheks for sale on the Internet auction website, eBay. MetroCheks are a prepaid
                   fare card for use on transportation resources of the Washington Metropolitan
                   Area Transit Authority, including trains, the subway, buses, and van pools. Me-
                   troChek transit subsidies are provided by the employers, including the Federal
                   Government, to eligible employees. The sale, trade, or transfer of these tax-free
                   benefits, paid for by the employing agencies, is prohibited. OIG monitored auc-
                   tions conducted on eBay during the period of March to June 2006 and noted 70
                   individuals selling $20,250 worth of MetroCheks.

                   In response to an OIG subpoena, eBay provided information regarding the 10
                   individuals selling the largest volume of MetroCheks during the review period.
                   (For example, the top seller sold MetroCheks with a face value of $1,360 for
                   approximately $900.) The information provided included details regarding the
                   addresses of computer systems used to contact eBay networks. OIG was able to
                   determine that seven of the individuals were Federal Government employees,
                   and OIG provided the information regarding these individuals to the Offices of
                   the Inspector General at those agencies. No involvement by NRC employees in
                   these prohibited activities was noted during this review. (Addresses Management
                   Challenge #6)

                   Possible Release of Safeguards Information

                   OIG Strategic Goal: Security

                   OIG conducted an investigation into NRC staff ’s concerns that a letter authored by
                   a manufacturer of spent nuclear fuel storage containers included NRC safeguards
                   information (SGI). The letter included one paragraph that described the structural
                   integrity of spent nuclear fuel storage containers after impact with an object. The
                   paragraph also included the words “safeguarded information” in parentheses. The
                   author did not have authorized access to NRC safeguards information.

                   OIG determined that all information included in the letter was obtained through
                   open sources in combination with the author’s own calculations. The author is

30
NRC OIG Semiannual Report
a structural engineer (Ph.D., P.E.), with detailed knowledge of spent nuclear fuel
storage systems. OIG also determined that the author obtained knowledge on
the NRC’s methodology in calculating damage to spent fuel storage systems by
attending public hearings in June 2000, during which NRC staff discussed those
specific methodologies.

OIG substantiated through a senior NRC engineer in the Spent Fuel Projects
Office that the conclusions drawn by the author could have been “very easily ”
calculated by a structural engineer with specific knowledge concerning spent
nuclear fuel storage systems and knowledge of the methodology used to calculate
damage to these systems.

An OIG review of the NRC Designation Guide for Safeguards Information (DG-
SGI-1) revealed that “Information published or discussed by entities not autho-
rized access to SGI cannot be designated SGI if the information was obtained or
developed without the assistance of an SGI-authorized individual.” (Addresses
Management Challenge #2)

Review of NRC Workers’ Compensation Claims

OIG Strategic Goal: Corporate Management

OIG conducted an investigation into the status of NRC employees who sustained
workplace illnesses and injuries and were receiving compensation benefits through
the Department of Labor (DOL), Office of Workers’ Compensation Program
(OWCP). In a recent 1-year period, NRC reimbursements to DOL totaled over
$715,000 for OWCP claims paid on behalf of NRC employees. OIG’s review of
the files of nine former NRC employees did not reveal any indications of fraud
or that any of these OWCP claimants failed to comply with DOL requirements.

However, OIG learned that one individual was medically cleared to return to work
in 1994, but this person never returned to work at NRC and was still receiving
OWCP benefits. A review of the individual’s OWCP files reflected a 1991 injury
from an attempt to open a jammed restroom door at NRC Headquarters. In July
1993, a vocational rehabilitation counselor informed NRC that the individual was
capable of returning to work on an 8-hour a day basis, with minor restrictions.
However, in August 1993 NRC terminated the individual from employment based
on a “physical inability” to perform the functions of the position. Consequently,

                                                                                              31
                                                                     April 1, 2006 – September 30, 2006
                   the individual began receiving monthly workers’ compensation payments of
                   75 percent of the employee’s NRC salary.

                   Through the District Office Director, OWCP, the OIG learned that NRC could
                   require the individual to undergo a physical examination and, if found fully
                   recovered, offer employment. If the individual refused the offer of employment,
                   NRC could stop OWCP benefits. OIG determined that if the individual in ques-
                   tion is not offered employment by the NRC and OWCP benefits continue, the
                   NRC could incur costs totaling approximately $421,710 over the next 30 years.
                   Staff of the NRC Executive Director for Operations is reviewing this matter. (Ad-
                   dresses Management Challenge #6)

                                  NRC Staff Oversight of NRC Cafeteria Contract

                                  OIG Strategic Goal: Corporate Management

                                  OIG conducted an investigation based on information that Aramark,
                                  the contractor for the NRC cafeteria, was overcharging customers
                                  for the State of Maryland sales tax. OIG learned that the NRC
                                  cafeteria cash registers were upgraded in December 2005, which
                                  resulted in an unexplained programming error that entered the
                                  Maryland State tax of 5.5 percent instead of 5.0 percent. This er-
                                  ror went undetected for 3 months during which time, Aramark
                                  charged customers 5.5 percent instead of 5.0 percent for Maryland
                                  sales tax. OIG verified that Aramark paid the tax overcharge to
                                  the State of Maryland, as required by law.

                   OIG learned that the Aramark cafeteria contract was a “no cost” to the Government
                   agreement. Under this unique contract, Aramark was authorized to retain up to
                   10 percent of their net sales. Through a review of Aramark’s vendor invoices and
                   daily sales reports, OIG found that Aramark’s record keeping contained various
                   inaccuracies. This OIG investigation determined that NRC had not exercised
                   significant oversight of the Aramark cafeteria contract, ostensibly due to the na-
                   ture of the contract and the fact that the contract does not involve appropriated
                   Government funds. (Addresses Management Challenge #6)



32
NRC OIG Semiannual Report
                             STATISTICAL SUMMARY OF
                               OIG ACCOMPLISHMENTS
INVESTIGATIVE STATISTICS
Source of Allegations — April 1, 2006, through September 30, 2006

                         NRC Employee                                       20
                     NRC Management                                    17
           Other Government Agency             1
                              Intervenor                6
                         General Public                                                        38
              OIG Investigation/Audit                       8
                    Regulated Industry                  6
                            Anonymous                                                       36
                        NRC Contractor            2


           Allegations resulting from the Hotline: 48                                    Total: 134



Disposition of Allegations — April 1, 2006, through September 30, 2006

                                    Total                                                      134
              Closed Administratively                                 56
        Referred for OIG Investigation                      26
                Referred for OIG Audit        3
Referred to NRC Management and Staff                             39
           Correlated to Existing Case         5
                              Processing      1
            Pending Review or Action           4



                                                                                                          33
                                                                                 April 1, 2006 – September 30, 2006
                   STATUS OF INVESTIGATIONS
                   DOJ Referrals . .................................................................................................... 7
                   DOJ Declinations ............................................................................................... 6
                   Pending DOJ Actions ........................................................................................ 1
                   State Referrals...................................................................................................... 1
                   State Declinations................................................................................................ 1
                   Convictions ......................................................................................................... 1
                   Sentencing ........................................................................................................... 1
                   PFCRA Recoveries ..................................................................................$86,650
                   Other Recoveries .......................................................................................$1,008
                   Arrest.................................................................................................................... 1
                   NRC Administrative Actions:
                   	 Terminations and Resignations ................................................................. 3
                   	 Suspensions and Demotions ...................................................................... 1
                   	 Counseling . ................................................................................................ 11
                   	 Alternative Dispute Resolution . ................................................................ 2
                   	 Other Administrative Action ..................................................................... 3

                   SUMMARY OF INVESTIGATIONS
                   Classification of 		           Opened 	 Closed 	 Cases In
                   Investigations	     Carryover	 Cases	   Cases	 Progress
                     Conflict of Interest	                                           1	                 0	               1	               0
                     Internal Fraud	                                                 0	                 1	               0	               1
                     External Fraud	                                                 7	                 0	               7	               0
                     	False Statements	                                              1	                 0	               1	               0
                      	Misuse of Government Property	                               17	                 6	              21	               2
                   	Employee Misconduct	                                             4	                 9	               8	               5
                    	Management Misconduct	                                          3	                 2	               4	               1
                     Technical Allegations — Other	                                  9	                 5	              11	               3
                   Proactive Initiatives	                                           14	                 0	              12	               2
                   Theft	                                                            0	                 2	               1	               1
                   Whistleblower Reprisal	                                           0	                 1	               1	               0
                   Event Inquiries	                                                  5	                 0	               2	               3


34
                   	 	 	 Total Investigations	                                      61	                26	              69	              18


NRC OIG Semiannual Report
AUDIT LISTINGS
Internal Program Audit and Special Evaluation Reports

Date	        Title	                                             Audit Number

04/14/06	    Audit of NRC’s Oversight of Agreement 	            OIG-06-A-12
	            States’ Licensing Actions
06/23/06 	   Audit of NMSS’ Procedures for Processing 	         OIG-06-A-13
	            Inspection Guidance
06/30/06 	   Evaluation of Personal Privacy Information	        OIG-06-A-14
	            Found on NRC Network Drives 	
07/11/06 	   Office of the Inspector General Computer 	         OIG-06-A-15
	            Security Audit of Region I - King of Prussia, PA
07/11/06	    Office of the Inspector General Computer	          OIG-06-A-16
	            Security Audit of Region II - Atlanta, GA
07/11/06	    Office of the Inspector General Computer 	         OIG-06-A-17
	            Security Audit of Region III - Lisle, IL
07/11/06	    Office of the Inspector General Computer 	         OIG-06-A-18
	            Security Audit of Region IV - Arlington, TX
07/11/06	    Office of the Inspector General Computer 	         OIG-06-A-19
	            Security Audit of the Technical Training
	            Center, Chattanooga, TN
08/01/06	    Audit of NRC’s Implementation of Homeland 	        OIG-06-A-20
	            Security Presidential Directive-12 (HSPD-12)	
09/08/06	    Audit of NRC’s Baseline Security and 	             OIG-06-A-21
	            Safeguards Inspection Program
09/08/06	    Audit of NRC’s Process for Releasing 	             OIG-06-A-22
	            Commission Decision Documents	
09/21/06	    Evaluation of NRC’s Efforts to Protect 	           OIG-06-A-23
	            Sensitive Information
09/29/06	    Evaluation of NRC’s Information 	                  OIG-06-A-24
	            Security Practices	
09/29/06	    Evaluation of NRC’s Use of Probabilistic 	         OIG-06-A-25
	            Risk Assessment (PRA) in Regulating the
	            Commercial Nuclear Power Industry

                                                                                           35
09/29/06	    Perspective on NRC’s PRA Policy Statement	         OIG-06-A-26

                                                                  April 1, 2006 – September 30, 2006
                   CONTRACT AUDIT REPORTS
                   OIG	          Contractor/	                    Questioned	   Unsupported
                   Issue Date	   Contract Number	                  Costs	         Costs

                   3/2/06	       Athey Consulting	 0	 0
                   	             NRC-26-98-262
                   	             NRC-26-03-403			

                   3/2/06	       Hummer Whole Health Management	 0	 0
                   	             NRC-38-00-290			

                   4/17/06	      Ruland Associates	 0	 0
                   	             NRC-33-03-314
                   	             NRC-33-98-180			

                   8/20/06	      Southwest Research Institute	       0	             0
                   	             NRC-02-01-005
                   	             NRC-02-02-003
                   	             NRC-02-02-012
                   	             NRC 02-03-002
                   	             NRC-02-03-004
                   	             NRC-02-03-005
                   	             NRC-02-03-005-02
                   	             NRC-02-03-007
                   	             NRC-02-04-001
                   	             NRC-02-04-014
                   	             NRC-02-97-001
                   	             NRC-02-97-009
                   	             NRC-02-98-002
                   	             NRC-02-98-007
                   	             DR-04-04-070




36
NRC OIG Semiannual Report
                                                                                   AUDIT TABLES
TABLE I
OIG Reports Containing Questioned Costs1
April 1, 2006 – September 30, 2006

		                                                                                           Questioned	             Unsupported
	        Number of	                                                                             Costs	                  Costs
Reports	  Reports	                                                                            (Dollars)	              (Dollars)

A.	    For which no management decision
       had been made by the commencement
       of the reporting period	                                           1	                    $38,433	              $3,606,3652

B.	    Which were issued during the
       reporting period	                                                  0	                         0	                      0

	      Subtotal (A + B)	                                                  1	                    $38,433	              $3,606,365

C.	    For which a management decision was
       made during the reporting period:

	      (i) 	 dollar value of disallowed costs	                            0	                         0	                      0

	      (ii)	 dollar value of costs not disallowed	                        0	                         0	                      0

D.	    For which no management decision
       had been made by the end of the
       reporting period	                                                  1	                    $38,433	              $3,606,365

E.	    For which no management decision was
       made within 6 months of issuance	                                  1	                    $38,433	              $3,606,365

1
 Questioned costs are costs that are questioned by the OIG because of an alleged violation of a provision of a law, regulation, contract,
grant, cooperative agreement, or other agreement or document governing the expenditure of funds; a finding that, at the time of the
audit, such costs are not supported by adequate documentation; or a finding that the expenditure of funds for the intended purpose
is unnecessary or unreasonable.
The General Services Administration (GSA) is responsible for the management decision on these questioned and unsupported costs.
2

GSA has advised that the decision will be made sometime in 2006.



                                                                                                                              37
                                                                                             April 1, 2006 – September 30, 2006
          TABLE II
          OIG Reports Issued with Recommendations That Funds Be Put to Better Use3

          	                                                                    Number of	            Dollar Value
          Reports	                                                              Reports	              of Funds

          A.	    For which no management decision	 0	 0
                 had been made by the commencement
                 of the reporting period			

          B.	    Which were issued during the 	 0	                                                           0
                 reporting period		

          C.	    For which a management decision was	
                 made during the reporting period:		

          	       (i) 	 dollar value of recommendations	                             0	                      0
                 	      that were agreed to by management

          	       (ii) 	dollar value of recommendations 	                            0	                      0
                  	 that were not agreed to by management

          D.	    For which no management decision had	                               0	                      0
                 been made by the end of the reporting
                 period

          E.	    For which no management decision was	 0	 0
                 made within 6 months of issuance				



          3
           A “recommendation that funds be put to better use” is a recommendation by the OIG that funds could be
          used more efficiently if NRC management took actions to implement and complete the recommendation,
          including: reductions in outlays; deobligation of funds from programs or operations; withdrawal of
          interest subsidy costs on loans or loan guarantees, insurance, or bonds; costs not incurred by implementing
          recommended improvements related to the operations of NRC, a contractor, or a grantee; avoidance of
          unnecessary expenditures noted in preaward reviews of contract or grant agreements; or any other savings which are
          specifically identified.


38
NRC OIG Semiannual Report
TABLE III
Significant Recommendations Described in Previous Semiannual Reports on
Which Corrective Action Has Not Been Completed

Date	       Report Title	                                                       Number

05/26/03	   Audit of NRC’s Regulatory Oversight of Special 	                 OIG-03-A-15
	           Nuclear Materials

	           Recommendation 1: Conduct periodic inspections to verify that material
	           licensees comply with material control and accountability (MC&A)
	           requirements, including, but not limited to, visual inspections of licensees’
	           special nuclear material (SNM) inventories and validation of reported
	           information.

05/24/04	   Review of NRC’s Drug-Free Workplace Plan	                        OIG-04-A-15

	           Recommendation 3: Obtain U.S. Department of Health and Human Services
	           approval of the NRC Drug-Free Workplace Plan prior to implementation.

09/16/04	   Audit of NRC’s Incident Response Program	                        OIG-04-A-20

	           Recommendation 1: Establish a defined agencywide incident response plan
	           that includes standards for performance, delineation of the conduct of exer-
	           cises and drills, and a well-defined objective mechanism for evaluating incident
	           response during exercises.




                                                                                               39
                                                                     April 1, 2006 – September 30, 2006
         TABLE III (continued)
         Significant Recommendations Described in Previous Semiannual Reports on
         Which Corrective Action Has Not Been Completed

         Date	        Report Title	                                                    Number

         09/30/05	    Evaluation of NRC’s Certification and Accreditation Efforts	 OIG-05-A-20

         	            Recommendation 1: Develop and implement procedures for monitoring
         	            timely initiation of certification and accreditation efforts.

         	            Recommendation 2: Develop and implement a mechanism for holding
         	            responsible managers and their staff accountable for completing certification
         	            and accreditation efforts in a timely manner.




40
NRC OIG Semiannual Report
TABLE IV
Summary of Audit Reports Without Management Decision For More Than Six Months

Date	       Report Title	                                                          Number

02/23/06	   Audit of the Development of the National Source 	                   OIG-06-A-10
	           Tracking System

	           Summary: OIG made two recommedations to the Executive Director for
	           Operations to (1) conduct a thorough regulatory analysis for all radioactive
	           sources that should be included in the new system, and (2) validate data in
	           an existing data base. The agency disagreed with the first recommendation
	           and agreed to take corrective action on the second recommendation. Recom-
	           mendation 1 remains unresolved.

	           Reason Unresolved: The agency’s proposed action does not fully address the intent
	           of OIG’s recommendation. OIG recommended that NRC conduct a comprehen-
	           sive regulatory analysis of a much broader group of materials, including aggrega-
	           tion of sources and bulk material. NRC’s proposal falls far short of what OIG
	           recommends. OIG plans to send the issue to the audit resolution process.

03/16/06	   Audit of the NRC’s Byproduct Materials License 	                    OIG-06-A-11
	           Application and Review Process

	           Summary: OIG made two recommendations to the Executive Director for Operations
	           to (1) conduct a complete vulnerability assessment of the materials program,
	           including the license application and review process, and (2) modify the license
	           application and review process to mitigate the risks identified in the vulnerability
	           assessment. The agency disagreed with both recommendations and the recom-
	           mendations remain unresolved.

	           Reason Unresolved: OIG’s recommendation cannot be implemented unless
	           and until NRC has undertaken a comprehensive vulnerability assessment of
	           the materials program.The recommendation to modify the license and appli
	           cation review to mitigate risks discovered during a comprehensive vulner-
	           ability assessment necessarily depends on the results of such an assess-
	           ment. OIG plans to send the issue to the audit resolution process.
                                                                                                   41
                                                                        April 1, 2006 – September 30, 2006
ABBREVIATIONS AND ACRONYMS
                   AEA	       Atomic Energy Act

                   CAF	       Composite Adversary Force

                   DCIS	      Defense Criminal Investigative Service

                   DOE	       U.S. Department of Energy

                   DOL	       U.S. Department of Labor

                   EP	        Emergency Preparedness

                   FISMA	     Federal Information Security Management Act

                   FOF	       Force-on-Force Exercises

                   FOIA	      Freedom of Information Act

                   FY 	       Fiscal Year

                   GAO	       Government Accountability Office

                   HSPD-12	   Homeland Security Presidential Directive-12

                   IG	        Inspector General

                   IG Act	    Inspector General Act

                   INPO	      Institute of Nuclear Power Operations

                   IT	        information technology

                   MD	        Management Directive

                   NIST	      National Institute of Standards and Technology

                   NMSS	      Office of Nuclear Material Safety and Safeguards (NRC)

                   NRC 	      U.S. Nuclear Regulatory Commission

                   OEDO	      Office of the Executive Director for Operations (NRC)
42
NRC OIG Semiannual Report
OIG 	       Office of the Inspector General (NRC)

OMB	        Office of Management and Budget

OWCP	       Office of Workers’ Compensation Program

PCIE/ECIE	 President’s Council on Integrity and Efficiency/
	          Executive Council on Integrity and Efficiency

PRA	        Probabilistic Risk Assessment

RDD	        radiological dispersal device

SA	         Special Agent

SECYs	      Commission Papers

SGI	        safeguards information

SPMS	       Space and Property Management System

SRM	        Staff Requirements Memorandum

SSC	        systems, structures and components

TTC	        Technical Training Center (NRC)




                                                                                       43
                                                              April 1, 2006 – September 30, 2006
REPORTING REQUIREMENTS
                   The Inspector General Act of 1978, as amended (1988), specifies reporting require-
                   ments for semiannual reports. This index cross-references those requirements
                   to the applicable pages where they are fulfilled in this report.

                   	
                   CITATION	               REPORTING REQUIREMENTS	                                                PAGE

                   Section 4(a)(2)	        Review of Legislation and Regulations . ...................................7

                   Section 5(a)(1)	        Significant Problems, Abuses, and Deficiencies . .... 13-20, 27-32

                   Section 5(a)(2) 	 Recommendations for Corrective Action ........................13-20

                   Section 5(a)(3) 	 Prior Significant Recommendations
                   	                 Not Yet Completed . ............................................................39-41

                   Section 5(a)(4) 	 Matters Referred to Prosecutive Authorities ........................ 34

                   Section 5(a)(5) 	 Information or Assistance Refused . ................................. None

                   Section 5(a)(6) 	 Listing of Audit Reports .......................................................... 35

                   Section 5(a)(7) 	 Summary of Significant Reports ...........................13-20, 27-32

                   Section 5(a)(8) 	 Audit Reports — Questioned Costs ...................................... 37

                   Section 5(a)(9) 	 Audit Reports — Funds Put to Better Use ............................ 38

                   Section 5(a)(10) 	 Audit Reports Issued Before Commencement
                   	                  of the Reporting Period for Which No
                   	                  Management Decision Has Been Made .......................... 37, 41

                   Section 5(a)(11) 	 Significant Revised Management Decisions .................... None

                   Section 5(a)(12) 	 Significant Management Decisions With
                   	                  Which OIG Disagreed ........................................................ None




44
NRC OIG Semiannual Report
Dresden Generating Station
                                                      45
                             April 1, 2006 – September 30, 2006
46                          Spent Fuel Storage Containers

NRC OIG Semiannual Report
